SEC.gov |  1995 Audit of Midwest Regional Office
Search SEC Documents
Company Filings | More Search Options
Skip to Main Content
About
What We Do
Commissioners
Securities Laws
SEC Docket
Reports
Careers
Contact
Divisions
Corporation Finance
Enforcement
Investment Management
Economic and Risk Analysis
Trading and Markets
National Exam Program
All Divisions and Offices
Enforcement
Litigation Releases
Administrative Proceedings
Opinions and Adjudicatory Orders
Accounting and Auditing
Trading Suspensions
How Investigations Work
Administrative Law Judges
Regulation
Proposed Rules
Final Rules
Interim Final Temporary Rules
Other Orders and Notices
Self-Regulatory Organizations
Staff Interpretations
Education
Investor.gov
Check Out a Broker or Adviser
Investor Alerts and Bulletins
Fast Answers
File a Tip or Complaint
Publications
Filings
EDGAR Search Tools
Company Filings Search
How to Search EDGAR
Requesting Public Documents
Descriptions of Filing Types
Information for Filers
About EDGAR
News
Press Releases
Public Statements
Speeches
Testimony
Spotlight Topics
What's New
News Digest
Events
Webcasts
Special Studies
1995 Audit of Midwest Regional Office
Inspector General
About OIG Office of Audits Office of Investigations Semiannual Reports Testimony Other Publications References Links Relevant FOIA Documents Contact Us
This document is an HTML formatted version of a printed document.
The printed document may contain agency comments, charts, photographs,
appendices, footnotes and page numbers which may not be reproduced in this
electronic version.  If you require a printed version of this document
contact the United States Securities and Exchange Commission, Office of
Inspector General, Mail Stop 11-7, 450 Fifth Street N.W., Washington, D.C.
20549 or call (202) 942-4460.
1995 Audit of Midwest Regional Office
Audit Report No. 216February 2, 1995
EXECUTIVE SUMMARY
In August and September 1994, we performed an audit of administrative and program controls in the Midwest Regional Office (MWRO). The audit found that MWRO controls were generally functioning adequately. We are recommending certain improvements, as summarized below and described in the Audit Results section.
The MWRO should document its market search and justify use of a sole source for purchases; periodically reconcile its records with the Comptroller's; formally appoint an ADP liaison; and tighten controls over the transit subsidy program, among other improvements. It should also help develop guidance for investment company/investment advisor examinations.
Generally, the MWRO agreed with our findings and recommendations, and has already begun corrective actions. See its comments, attached. We have modified the report as appropriate to reflect the MWRO's comments, as well as those of the Office of the Executive Director (also attached).
SCOPE AND OBJECTIVES
We reviewed selected administrative and program controls of the Midwest Regional Office. The activities reviewed included time and attendance, property, purchasing, travel, accounting, enforcement, and regulation.
The audit steps included interviews with administrative and program staff and tests of records. Because of time and resource constraints, the scope of testing was more limited than it would have otherwise been.
Our objective was to determine whether the MWRO's controls were adequate, were being implemented economically and efficiently, and were in compliance with Commission policies and procedures.
We performed the review between August and September, 1994, in accordance with generally accepted government auditing standards.
BACKGROUND
The Midwest Regional Office in Chicago, Illinois, is responsible for administering Commission programs, subject to headquarters oversight, in the midwestern United States (Illinois, Indiana, Iowa, Kentucky, Michigan, Minnesota, Missouri, Ohio, and Wisconsin).
The MWRO is headed by a Regional Director. A Deputy Regional Director and two Associate Regional Directors (for Enforcement and Regulation) report to the Regional Director.
The MWRO is further divided into offices headed by Assistant Regional Directors. In turn, the offices are divided into branches (enforcement, broker dealer and transfer agent examinations, and investment company/investment adviser examinations).
The Administrative Officer (AO) is responsible for most day-to-day administrative matters. Her duties include travel, personnel, purchasing, and budgeting and accounting. Several timekeepers maintain the office's time and attendance (T&A) records under the supervision of the Administrative Officer.
The MWRO receives guidance from and coordinates with relevant headquarters offices. For example, the Office of the Comptroller has overall responsibility for processing travel expenditures. The Divisions of Enforcement, Market Regulation, and Investment Management provide guidance for their respective programs.
AUDIT RESULTS
We found that MWRO controls were generally functioning adequately. We are recommending certain enhancements, as discussed below. The audit findings and recommendations are organized by function.
AUTOMATED DATA PROCESSING
ADP Liaison
Like other Commission components, the MWRO makes extensive use of automated data processing (ADP) equipment and software. It has not yet formally appointed an ADP Liaison, although one of its staff is assigned to ADP issues. In a future audit, the Office of Inspector General plans to review the roles and responsibilities of the ADP liaisons in the field and home office.
Recommendation A
The MWRO should appoint and train an ADP Liaison. The performance plan of the Liaison should include ADP duties. According to the MWRO, a Computer Specialist was hired in July, 1994, and his performance plan includes ADP duties.
Location of ADP Equipment
The MWRO maintains an ADP file server and cables in a dusty telephone closet with poor ventilation. ADP equipment is sensitive to its environment and can be damaged by these conditions.
Recommendation B
The MWRO should provide adequate ventilation and a cleaner environment for the file server and cables.
TIME AND ATTENDANCE
The MWRO's timekeepers enter time and attendance (T&A) data into the automated payroll records, and maintain manual payroll records (time and attendance records on Form SF-699, applications for leave, and overtime approval forms). Timekeepers are responsible for the completeness and accuracy of their T&A records.
We examined the 1994 payroll records of a judgement sample of fifteen employees. Generally, the records were complete, legible, mathematically correct, and adequately supported the time and attendance entries. The timekeepers should be commended for the well maintained records, especially since they recently assumed this responsibility. We found several immaterial errors and omissions, which are described in the Appendix.
Recommendation C
The MWRO should correct the leave balances for the SF-699 timecards discussed in the Appendix.
Recommendation D
The MWRO should inform its timekeepers of the results of our review and remind them to be more careful about errors in these areas.
BUDGETING AND ACCOUNTING
The Office of the Comptroller (OC) maintains the Commission's official budgeting and accounting records (the Federal Financial System, or FFS). The MWRO, like other offices and divisions, receives a budget for its operations at the beginning of each fiscal year. It is required to maintain blotter records of its expenditures, and to reconcile them with OC's, using a monthly print-out from that office.
The MWRO does not perform a monthly reconciliation. MWRO staff indicated that it does not receive current information on the status of funds, making reconciliation difficult.
We were informed by OC personnel that efforts are underway to expedite the availability of fund status data. The Comptroller's Office is developing methods to transmit electronically fund status data to field offices. OC officials also informed us that ad hoc reporting capabilities are available from FFS but due to its complexity requires specialized training.
Ultimately the MWRO administrative personnel rely on their own records for maintaining fund status. Our review of these records showed that funds were well monitored.
Recommendation E
The MWRO should periodically reconcile its records with the fund status reports from the Comptroller's Office, increasing the frequency of reconciliations near fiscal year end. Also, the MWRO should request training in the ad hoc reporting capabilities of FFS.
Recommendation F
The Office of the Comptroller should survey Commission administrative officers for ways to improve the reconciliation process.
Recommendation G
The OC should expedite, within its resources, ongoing efforts to distribute fund availability reports electronically. The OC should also make training available to generate ad hoc reports from the accounting system, as resources allow.
TRANSIT SUBSIDY PROGRAM
The MWRO participates in the Commission's transit subsidy program. Participants sign a certification form as well as a Fare Subsidy log.
We reviewed program records, and reconciled transportation checks on hand with the records. We also observed physical security over the checks.
Generally, the records appeared well maintained, and the checks were stored in a secure location. One check was missing, however, based on our count.
In response, the MWRO proposed to tighten controls over the checks by performing a count at the end of each month. The records will also be finalized then.
Recommendation H
The MWRO should implement its plans to tighten controls over transit checks.
PURCHASING
We reviewed two purchasing files. One file did not contain adequate evidence of a market search and a sole source justification, as required. In the other file, the vendor defaulted after being issued a purchase order. It has retained some MWRO furniture. The Administrative Officer continues to make efforts to recover the furniture or compel service but neither has resulted to date.
Recommendation I
The MWRO should remind its staff to document its market searches, and to prepare an adequate sole source justification when appropriate.
Recommendation J
The MWRO should take appropriate action to recover its furniture from the vendor. If necessary, it should consult with the Offices of Administrative and Personnel Management and General Counsel.
TRAVEL
We reviewed the MWRO's travel documentation for completeness, accuracy, and compliance with regulations. The review included travel blotter records, and a judgement sample of twenty-one travel authorizations and related vouchers.
Generally, travel authorizations and vouchers were appropriately prepared and approved. The amounts claimed were supported by receipts, and the travel justification appeared reasonable.
We found two vouchers were submitted late.
Recommendation K
The MWRO should remind its staff to submit vouchers in a timely manner.
PROPERTY INVENTORY
We selected a judgement sample of fifteen items from MWRO's property records for review. We were able to locate all fifteen items.
The MWRO has a number of laptop computers, one of which was recently lost. The laptops are kept in an ADP store room when not in use, and employees sign a log when they take one. However, some branch chiefs have lent laptops assigned to them to their staff, which lessens accountability.
Recommendation L
The MWRO should require branch chiefs who lend out laptop computers to maintain a signed log.
IMPREST FUND
The MWRO has an imprest fund for miscellaneous small purchases (e.g., office supplies, photocopying). We performed a cash count, examined a judgement sample of fifteen transactions, and observed security procedures. All funds were properly accounted for, and the fund was adequately secured.
PERSONNEL
The MWRO performs several personnel functions in coordination with the Office of Administrative and Personnel Management (OAPM). These functions include hiring, promoting, and training staff, and preparing performance standards and appraisals.
We reviewed a judgement sample of ten MWRO personnel files, and found them to be generally in accordance with OAPM requirements. We noted, however, that a section (Supervisory Position Certification and Authorization of Performance Plan) of three performance plans had not been completed.
Recommendation M
The MWRO should ensure that all performance plans are completed.
MANAGEMENT CONTROL PROGRAM
The MWRO, like all Commission offices, participates in the Management Control Program. The program requires an annual certification letter, which is prepared by the Office's Management Control Officer.
Currently, the MWRO does not obtain supporting certification letters from the Associate Regional Directors for Enforcement and Regulation. These letters would provide additional assurance that controls are adequate, or are being improved.
Recommendation N
The MWRO should obtain supporting certification letters from the Associate Regional Directors.
INVESTMENT MANAGEMENT
We reviewed a judgement sample of four investment company/investment advisor (IC/IA) examinations. The working papers for the examinations were not well organized, did not show evidence of supervisory review, and did not explain the exams' objectives, scope, methodology, and conclusions.
The Commission has not issued guidance on preparation and supervisory review of IC/IA working papers. Recently, the MWRO took a lead role in preparing such guidance for examinations of broker/dealers.
Recommendation O
The MWRO, other regions, and the Division of Investment Management should form a team to prepare guidance on IC/IA examination working papers.
ENFORCEMENT
Training
Several enforcement staff suggested that additional training, particularly in investigating white collar crime, would be helpful.
Recommendation P
The MWRO should survey its staff for their training needs and research training providers for available investigative and other classes.
APPENDIX
Summary of Time and Attendance Review
In our sample of fifteen employees, we found:
no authorization signatures on some leave slips (SF-71, Application for Leave) for two employees;
incomplete sick leave slips in some cases for five employees;
seven leave balances according to the leave slips which did not agree with the timecard (SF-699) balance; and
one leave slip which did not indicate the type of leave.
Site Map
Accessibility
Contracts
Privacy
Inspector General
Agency Financial Report
Budget & Performance
Careers
Contact
FOIA
No FEAR Act & EEO Data
Whistleblower Protection
Open Government
Plain Writing
Links
Investor.gov
USA.gov
U.S. Securities and Exchange Commission
ABOUT
DIVISIONS
ENFORCEMENT
REGULATION
EDUCATION
FILINGS
NEWSROOM
Inspector General
About OIG
Office of Audits
Office of Investigations
Semiannual Reports
Testimony
Other Publications
References Links
Relevant FOIA Documents
Contact Us